June 8, 2011

HELEN R. GRANT
ASSOCIATE GENERAL COUNSEL

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Conflicts of Interest: Facility Leases and Contract
        Delivery Services (Report Number DA-AR-11-008)

This report presents the results of our audit of facility leases and Contract Delivery
Service (CDS) agreements that represent potential conflicts of interest to the
U.S. Postal Service (Project Number 10YG016DA000). Our audit objective was to
assess whether leasing facilities from employees or their relatives or contracting with
employees for delivery services resulted in actual or apparent conflicts of interest. We
conducted this audit based on concerns brought to our attention and risks to
organizational branding.

Federal regulations and Postal Service policies 1 seek to minimize conflicts of interest to
ensure that every citizen can have confidence in the integrity of the federal government.
Postal Service policies encourage employees to avoid creating the appearance that
they are violating the law or ethical standards.

At the end of fiscal year 2010, the Postal Service leased over 24,000 properties that
represent about $1 billion 2 in annual rent. During the same period, the Postal Service
also maintained 7,797 mail delivery service contracts with individuals at an annual value
of $318,658,027. See Appendix A for additional information about this audit.




1
  Acts affecting a personal financial interest (Title 18 U.S.C. §208),Standards of Conduct for Employees of the
Executive Branch (5 U.S.C., §2635), Use of Public Office for Private Gain (5 CFR.2635.702), Use of nonpublic
information (5 CFR.2635.703), Supplying Principles & Practices – Section 7-12, General Practices; and Supplying
Principles & Practices – Principles – Ethics and Social Responsibility – Conflicts of Interest.
2
  Source: Postal Service 2010 Annual Report.
Conflicts of Interest: Facility Leases                                                                  DA-AR-11-008
 and Contract Delivery Services


Conclusion

Our audit determined the Postal Service entered into leases that resulted in financial
conflicts. 3 We identified 1,202 of 24,582 total leased properties that were obtained from
current or former Postal Service employees with an annual rent value of $8.2 million. Of
these properties, 982 were active leases with an annual rent value of $5.4 million.
One-hundred seventy of the active properties were leased from current employees with
an annual rent value of $490,375. Some pose risks of violations while others give the
appearance of impropriety.

Similarly, the Postal Service entered into 78 of the 7,797 total CDS contracts (valued at
$3,005,818 annually) with current or former employees that, in some cases, resulted in
apparent violations of federal regulations and Postal Service policies. Others also give
the appearance of impropriety.

Real Estate Leases – Conflicts of Interest

We randomly sampled 59 of the 1,202 leases that we associated with employees or
their relatives. As presented in Table 1, we identified 11 (or 19 percent) with financial
conflicts because they were owned by employees who have the authority to exert
significant influence in the lease process. These employees consisted of postmasters
and their reliefs. For eight of these 11 leases, we confirmed that employees did, in fact,
exert significant influence during negotiations in their roles as postmasters.

For example, in one instance the Postal Service decided to move operations from the
postmaster’s property due to the poor condition of the facility. The postmaster
subsequently solicited community support to discourage the move but once
unsuccessful, she was able to lease land for the new post office location. This instance,
among others, are apparent violations of Title18 U.S.C. §208 because employees
participated personally and substantially in the Postal Service’s decision to lease
property they own and represent illegal actions that, in the absence of an approved
waiver, are subject to criminal prosecution. We were unable to confirm apparent
Section 208 violations for the remaining three leases because there was insufficient
evidence in lease files to assess employee participation.




3
 Per Title 18 U.S.C. §208, a financial conflict exists when an employee participates personally and substantially in a
particular matter where he, his spouse, minor child, or member of his household has a financial interest.




                                                           2
Conflicts of Interest: Facility Leases                                                                DA-AR-11-008
 and Contract Delivery Services




        Table 1 – Results of Reviewing Active Leases With Potential Conflicts

                                                                        Sampled
                                  Category                                      Projections 4
                                                                         Leases
           Financial Conflicts – Apparent Section 208
                                                                              8               103
           Violations

           Financial Conflict                                                 3                16
           Active Lease Conflicts                                            11               119

In addition, we identified 27 (46 percent) leases that were not conflicts of interest per
Postal Service or federal guidelines. However, they give the appearance of impropriety.
These lease renewals include former employees who have insider knowledge into the
Postal Service’s leasing practices, current employees not assigned to the leased
location, and instances where the lessor was a permitted relative of a Postal Service
employee. The remaining 21 leases were no longer conflicts of interest due to
termination or ownership transfer to individuals other than Postal Service employees.

Apparent violations of Section 208 and federal ethics standards exist because Postal
Service policy allows employees or their relatives to lease smaller properties to the
Postal Service, self-disclosure of potential conflicts is ineffective, and the Postal Service
does not match lessor information to payroll records. For example, in four of the
11 financial conflicts, the lessors did not disclose their relationships with the Postal
Service as required.

As a result, we estimate that 119 of the 982 active leases (or 12 percent) are at risk for
conflict and 103 of them (or 10 percent) are possible in violation of Section 208. Section
208 does provide exceptions that require obtaining a waiver from the Postal Service’s
Designated Agency Ethics Official (DAEO). None of the lease files we reviewed that
were subject to Section 208 violations contained a waiver. See Appendix B for our
detailed analysis of this topic.

CDS – Conflicts of Interest

Of the 78 delivery contracts with potential conflicts, we confirmed that the Postal Service
awarded 15 of 78 contracts (19 percent) valued at $591,210 to current employees.
In one instance a rural carrier associate was awarded a delivery service contract in
July 2006 and remained an employee. The employee contractor did not disclose the
Postal Service relationship as required. This instance, among others, are not violations
of Section 208 because employees did not participate personally and substantially in
4
  We derived the projections based on the lower limit of a 90 percent confidence level. We are 95 percent confident
that the actual populations are at least as great as the projections.




                                                          3
Conflicts of Interest: Facility Leases                                                                      DA-AR-11-008
 and Contract Delivery Services


the contracting decision from which they or their relative received a financial benefit.
Rather, these contract awards are apparent violations of Title 18 U.S.C. §440 that
prohibits Postal Service employees from entering into contracts for mail delivery and
Postal Service policy that does not allow CDS contracting with current employees. 5
Section 440 violations are also illegal actions subject to criminal prosecution.

In addition, we determined that 27 of 78 (35 percent) contracts were awarded to
employees within days of separation from the Postal Service. Per discussion with Postal
Service contracting personnel, employees were advised to resign before receipt of
contract awards. Another 25 contracts (32 percent) were awarded to employees after 30
days of separation from the Postal Service. Although contracts with former employees
are not violations of Postal Service or federal conflicts of interest guidelines, they do
give the appearance of impropriety and may create the appearance that former
employees violated Title 5 CFR.2635.703 by using their insider knowledge of the Postal
Service to secure contract awards. This is particularly applicable to the 27 contracts
negotiated during the employees’ tenures and awarded shortly after separation. The
remaining 11 contracts were not financial conflicts due to contract termination or
changes in contractors.

           Table 2 – Results of Reviewing CDS Contracts With Potential Conflicts

                                   Category                                 Number of Contracts
               Financial Conflict (Apparent Section                                       15
               440 Violations)
               Appearance of Impropriety – Former                                         52
               Employees
               No Longer Conflict – Termination or                                        11
               Contractor Changes

Postal Service policies are implemented to minimize situations in which a supplier has
an unfair competitive advantage. 6 Awarding employees delivery service contracts
presents an appearance of impropriety and an unfair competitive advantage. CDS
conflicts existed because:

      The Postal Service does not match its contractor information to payroll records.

      Contractor self-disclosure is ineffective. Ten of the 15 contractors associated with
       apparent Section 440 violations did not disclose their Postal Service relationship as
       required.



5
    Supplying Principles & Practices, Section 7-12, General Practices.
6
    Supplying Principles & Practices – Principles – Ethics and Social Responsibility – Conflicts of Interest.




                                                              4
Conflicts of Interest: Facility Leases                                                                DA-AR-11-008
 and Contract Delivery Services


We consider $146,149 7 as questioned costs associated with apparent Section 208
violations for leases, as the Postal Service should not have entered into questionable
agreements. In addition we associated $591,210 in unrecoverable questioned costs for
CDS contracts awarded to current employees in apparent violation of federal
regulations and Postal Service policies. Although these amounts are not materially
significant, transactions with financial conflicts erode the integrity and brand of the
Postal Service. See Appendix B for our detailed analysis of this topic. Appendix C
details our monetary impact calculations.

We recommend the associate general counsel, in coordination with the vice president,
Facilities:

1. Revise the Postal Service’s policy for leasing property under 3,000 square feet from
   employees or relatives to include an ethics review.

2. Evaluate the universe of potential facility lease conflicts and develop an action plan
   to minimize active and future conflicts.

3. Implement a control to systemically identify, monitor, and resolve potential conflicts
   of interest with facility leases and, if necessary, request waivers for leases that
   represent conflicts.

We recommend the associate general counsel, in coordination with the vice president,
Supply Management:

4. Evaluate the universe of potential delivery service contract conflicts and develop an
   action plan to minimize active and future conflicts.

5. Implement a control to systemically identify, monitor, and resolve contract delivery
   service regulatory and policy violations in a timely manner.




7
 We derived the monetary impact projection based on the lower limit of a 90 percent confidence level. We are
95 percent confident that the actual population amount is at least as great as the monetary impact of $146,149.




                                                          5
Conflicts of Interest: Facility Leases                                           DA-AR-11-008
 and Contract Delivery Services


Management’s Comments

Management agreed with all five recommendations. In reference to facility leases,
management will revise Handbook RE-1, U.S. Postal Service Facilities Guide to Real
Property Acquisitions and Related Services, to require an ethics review and examine
the 982 leases we identified as potential conflicts of interest. If the examination leads to
risks of ethics violations they will seek the advice of ethics counsel. Management
believes that their planned actions — to be completed by December 2011 and
June 2012, respectively — will provide a system to monitor and resolve leases with
potential conflicts. In addition, management will review disclosure language in lease
agreements and strengthen it as necessary.

In reference to delivery service contracts, management planned to implement several
controls to minimize conflicts. By September 2011, management will review and make
necessary changes in their pre-award evaluation policies and processes to require
offerers to disclose whether they are current employees. This should enhance controls
for complying with the current prohibition to contracting with employees. In addition,
management will provide training corresponding to Title 18 USC §440 requirements to
contracting officers.

While management agreed with the recommendations and that financial conflicts occur
when an employee participates personally and substantially in business decisions, they
noted a fundamental disagreement about the application of certain ethics laws in the
draft report. In particular, they rejected the assertion that conflict of interest laws and
impartiality provisions applied to former employees and relatives. In addition, current
employees who do not have official duties involving lease decisions, such as employees
assigned to another location, do not legally give rise to a violation of the impartiality
provision of the Standards of Ethical Conduct for Employees of the Executive Branch
(Standards of Conduct).

Management also disagreed with our assessment of unrecoverable questioned costs.
Specifically, due to the pending investigation of leases, they did not agree with the
monetary impact presented at this time. Although they agree that delivery service
contracts with current employees are violations, they do not believe the contract dollars
represent a monetary loss or risk. Management comments, in their entirety, are included
in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

We agree that financial conflicts of interest laws and impartiality provisions in the
Standards of Conduct do not apply to former employees or family members who are not



                                              6
Conflicts of Interest: Facility Leases                                        DA-AR-11-008
 and Contract Delivery Services


the spouses or minor children of current employees. The same is true for current
employees who do not influence lease decisions. Although the contractual and leasing
relationships we noted for these individuals were not conflicts of interest, we determined
that the transactions, in substance, gave the “appearance of impropriety” and have
revised the report accordingly. Given the financial condition and increased visibility of
the Postal Service, appearance issues are critical and should not be readily dismissed.
Individuals with these appearance issues have a competitive advantage because of
their access to Postal Service insiders and knowledge of Postal Service operations.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
   VERIFY authenticity with e-Sign




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Mary Anne Gibbons
    Corporate Audit and Response Management




                                            7
Conflicts of Interest: Facility Leases                                        DA-AR-11-008
 and Contract Delivery Services


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Facilities is an enabling organization within the Postal Service whose primary mission is
to (1) provide quality real estate to meet present and future needs of Postal Service
organizations and (2) realize optimum value from facilities assets and transactions. The
facility management function is headquartered in Arlington, VA, and has Facility Service
Offices (FSO) throughout the country. Facilities administers over 24,000 leases that
represent about $1 billion in annual rent. The Postal Service has various levels of
approval and decision requirements based on the nature of the lease. The lease
approval levels depend on the lease amount and whether they are entering into a new
lease or exercising the renewal option of a current lease.

The Postal Service is required to provide retail and delivery services to customers in
rural areas. The FSO works with Postal Service Operations to identify suitable facilities
in these areas in accordance with Handbook RE-1. The cost of building a facility in a
rural area can be cost prohibitive for the Postal Service, thus, the agency does not
prohibit leasing property under 3,000 square feet (SF) from employees or relatives . For
these leases, the Postal Service’s long-standing practice is to balance the economic
advantage with the highest standard of ethical conduct and the best interests of the
Postal Service. The practice of leasing to employees dates back to the early years of
the Postal Service. Postmasters were allowed to conduct retail and delivery operations
in their homes and as an incentive for providing services. The Postal Service offered
postmasters an allowance as part of their compensation. In the late 1970s, the Postal
Service discontinued the allowance program and began a leasing relationship with
postmasters. The leasing relationship is not limited to Postal Service employees’ homes
and can also include employee-owned property.

A federal conflict of interest statute (Title 18 U.S.C, §208) forbids employees of the
federal government to participate personally and substantially as a government officer
or employee through decision, approval, or recommendation of a contract in which, to
his knowledge, he, his spouse, or minor child or any person or organization with whom
he is associated as an officer, director, trustee, general partner or employee, has a
financial interest. The statute and implementing regulations provide for Section 208
waivers with notification to the director of the Office of Government Ethics. Alleged
violations of Section 208 may be subject to criminal prosecution.

Current employees are also required to adhere to Title 18 U.S.C. §440 for mail delivery
contracts which states that whenever a person employed by the Postal Service
becomes interested in any contract for carrying the mail or acts as agent, with or without
compensation, for any contractor or person offering to become a contractor in any
business before the Postal Service shall be fined under this title or imprisoned not more
than 1 year or both.




                                            8
Conflicts of Interest: Facility Leases                                             DA-AR-11-008
 and Contract Delivery Services


CDS agreements are contracts between the Postal Service and an individual or
company for the delivery and collection of mail from homes and businesses. 8 The
services a CDS carrier provides are similar to those postal rural letter carriers provide,
including delivery of mail and sale of stamps.

To initiate a CDS contract, a contract representative issues a memorandum announcing
the solicitation request to the affected postmaster or local administrative official. The
local official subsequently posts a notice of “Solicitation Availability” for public viewing in
the post office. The official is also encouraged to use personal contacts, post brief
announcements in publications, and use radio and television stations to share the
contract solicitation, as long as the means used do not result in cost to the Postal
Service.

The contracting office handles questions regarding solicitation requests along with the
completed proposal documents. The contracting representative uses the following
criteria to evaluate the applicants:

      Offer submission/bidding price (annual rate).
      Prior experience (transportation).
      Equipment availability (vehicle).

The contracting office assesses the supplier’s capability based on the aforementioned
criteria and awards the contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service has adequate controls over
the execution of lease agreements and contracting of delivery services to avoid actual
or apparent conflicts of interest. In order to identify leases specifically related to conflicts
of interest, we compared Social Security numbers from the Postal Service’s Employee
Master File (EMF) to corresponding social security numbers for leases in the electronic
Facilities Maintenance System (eFMS). We randomly selected a statistical sample of
59 of 1,202 9 leases that matched for further study. Table 3 details the breakdown of our
sample.




8
    Publication 33, Mail Transportation Contracting Guide, February 2009.
9
    Twenty-two leases in this population were for spaces larger than 3,000 SF.




                                                            9
Conflicts of Interest: Facility Leases                                      DA-AR-11-008
 and Contract Delivery Services


                        Table 3 – Lease Sample Section by Area Office

                               Area                 Number of Leases
              Western Area                                  24
              Eastern Area                                  18
              Southwest Area                                7
              Northeast Area                                5
              Great Lakes Area                              3
              Southeast Area                                2
              Total                                         59



To determine if employee lessors used their Postal Service relationships to their
advantage, we visited a limited number of sites in the Western Area, conducted
interviews, and assessed their span of influence for lease decisions. In addition, we
reviewed lease files for award justification and reviewed negotiation notes. In
coordination with OIG Office of Investigations, we analyzed whether leases were held
by relatives or spouses of active or inactive Postal Service employees. A forensic
examiner performed background investigations of lessors and confirmed employee
status.

To identify CDS contract statutory, regulatory, and policy violations, we similarly
matched electronic contract data to employee records. Specifically, we matched data
from the Transportation Contract Support System to the EMF. We identified 78 CDS
contracts with current or former employees that were awarded by the five contract
offices presented in Table 4.




                                             10
Conflicts of Interest: Facility Leases                                           DA-AR-11-008
 and Contract Delivery Services


       Table 4 – Offices Awarding CDS Contracts to Postal Service Employees

                       Area                          Number of Contracts
                       Western Contracting Office            8
                       Eastern Contracting Office            22
                       Southern Contracting Office           15
                       Northern Contracting Office           13
                       Central Contracting Office            20
                       Total                                 78


To determine whether the contractor had influence in the award process, we reviewed
contract files. In particular, we reviewed award justification and pre-award conference
notes to assess influence and determine if the agreement was properly approved per
Postal Service policies.

We conducted this performance audit from March 2010 through June 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on March 11, 2011, and
included their comments where appropriate.

We assessed the reliability of computer generated data by comparing eFMS and TCSS
information to the applicable lease and CDS contract documentation, respectively,
without exception. We determined the data was sufficiently reliable for the purposes of
this report. We based our audit conclusions on a review of applicable federal statues,
regulations, and discussions with Postal Service and OIG counsel. Apparent violations
of applicable laws were referred to our Office of Investigations to determine whether a
referral to the Attorney General is warranted.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                                11
Conflicts of Interest: Facility Leases                                                             DA-AR-11-008
 and Contract Delivery Services


                                APPENDIX B: DETAILED ANALYSIS

Real Estate Leases – Conflicts of Interest

Our review noted the Postal Service engages employees or their relatives for its real
estate needs. These transactions create the need to manage potential conflicts of
interest for leased property. While federal statute and regulations and Postal Service
policies 10 control these potential conflicts, as indicated in Table 5, there are
1,202 potential conflict of interest leases held by current or former Postal Service
employees. Specifically, there are 982 active leases and 220 discontinued leases in
which vendor tax identification numbers match Postal Service employee Social Security
numbers. Seventy-eight percent of these leases were obtained from postmasters or
their relief; 7 percent from rural carriers; and the balance from casuals, clerks, and city
carriers.

Of most concern are leases associated with postmasters as they have authority 11 to
approve leases, repairs, emergency space, maintenance, and custodial services. At a
minimum, this relationship would cause a reasonable person to question an appearance
of impropriety as the lease arrangement is likely to have a direct and predictable effect
on the financial interests of the Postal Service employee. Active leases with potential
conflicts represented about 4 percent of leases, accounting for $5,437,344 of total lease
payments (or less than 1 percent).

         Table 5 – Status of Facilities Leased From Postal Service Employees

                        Facility Status          Leased          Owned 12        Total
                        Active                     981              1             982
                        Cancelled                   59             11              70
                        Disposed                    39             13              52
                        New/Planned                 2               0              2
                        Terminated                  96              0              96
                        Total                     1,177            25            1,202

In addition, as depicted in Table 6, 11 of 59 leases (19 percent) randomly sampled from
this population had financial conflicts associated with active leases. Based on the
11 sampled financial conflicts of concern, we estimate that at least 119 of the 982 active
leases in our universe represent financial conflicts.




10
   Federal guidance related to conflicts of interest is included in Title 18 U.S.C., §208 and Executive Order
12731,Principles of Ethical Conduct for Government Officers and Employees. Postal Service guidance related to
conflicts of interest are included in Handbook RE-1.
11
   Administrative Services Manual, Chapter 5.
12
   The Postal Service owns the building and leases the land.




                                                       12
Conflicts of Interest: Facility Leases                                                        DA-AR-11-008
 and Contract Delivery Services




                              Table 6 – Results of Reviewing 59 Leases

                                                               Universe of
                                                                 Leases    Sampled
                           Category                                                Projections
                                                               Matched to Leases
                                                               Employees
     Apparent Section 208 Violations                                          8        103
     Could Not Determine Employee Influence
                                                                                          3     16
     as Prescribed in Section 208
     Subtotal Active Lease Conflicts                                                  11       119
     Active Leases with Current Employees
                                                                                          2     7
     Assigned to Another Location
     Appearance of Impropriety – Former
                                                                                      25       343
     Employees
     No Longer Employee Owned / Conflict                                              16       195
     Subtotal Active Leases                                         982               54
     Terminated Leases – No Longer Conflicts                        220               5
     Total Leases                                                   1202              59

Our review also confirmed that eight of the 11 active leases with financial conflicts were
apparent violations of Section 208 because employees personally and substantially
participated in the lease decision in which they had a financial interest. For example, in
one instance, the Postal Service decided to move from the postmaster’s facility due to
poor conditions. The postmaster subsequently solicited community support to
discourage the move. When she was unsuccessful, she submitted a bid for a leasing
land for the new Post Office location and her lease bid was selected. In other instances
the postmasters appear to use their leasing relationship as a condition of employment.

Based on these eight leases, we estimate that at least 103 of the 982 active leases in
our initial universe are also subject to Section 208 violations. Office of Government
Ethics regulations 13 require a waiver for potential Title 18 U.S.C. §208 violations from
the government official delegated the authority to issue a waiver. At the Postal Service,
the DAEO would issue the waiver, in consultation with the Office of Government Ethics.
Lease documentation did not contain a waiver for these leases. In the absence of a
waiver, Section 208 violations represent illegal actions that are subject to criminal
prosecution. As such, we have referred these cases to our Office of Investigations. The
other three leases owned by postmasters or postmaster relief were at risk for violations
of Section 208; however, lease files did not provide sufficient evidence to determine
employee influence on the lease decision.



13
     Standards of Conduct for Employees of the Executive Branch (5 U.S.C. 2635.402(d)).




                                                         13
Conflicts of Interest: Facility Leases                                         DA-AR-11-008
 and Contract Delivery Services


Another 25 active leases sampled correspond to former employees and relatives.
Although there appear to be conflicts due to their Postal Service relationships, by
definition they are not violations of federal ethics standards, which apply to current
employees. Furthermore, federal conflict of interest statutes do not apply to relatives
who are not spouses or minor children of federal employees. In our sample, the
relatives of employees associated with an active lease were not spouses or minor
children. Former employees and relatives have insider knowledge of Postal Service
leasing practices and despite compliance with federal and Postal Service policy, these
lease renewals give the appearance of impropriety. In addition, two lease renewals
were associated with active employees assigned to another location which also gives
an appearance of impropriety. The remaining 21 leases were no longer apparent
conflicts of interest as the Postal Service had either terminated them or ownership had
changed.

Postal Service Handbook RE-1, Chapter 3, provides guidance on leasing from Postal
Service employees or immediate family members and is in compliance with federal
Executive Order 12731. Handbook RE-1, Chapter 3, generally prohibits the Postal
Service from entering into new agreements to option, purchase, or lease real property
or contract real estate services from:

1) Any member of the Postal Service or member of the employee’s immediate family.

2) Any individual bound by a personal services contract to the Postal Service or
   members of the individual’s immediate family.

3) Any business substantially owned or controlled by Postal Service employees,
   personal service contractors, or members of their immediate families.

4) Any former Postal Service officer, executive, or employee.

Conditions of financial conflicts and apparent violations exist because:

       Postal Service policy allows property to be leased from employees or relatives for
        properties under 3,000 SF.

       The Postal Service does not match lessor information to payroll records.

       Self-disclosure of conflicts is ineffective. We consider self-disclosure alone
        ineffective to mitigate apparent conflicts as lease documentation did not show
        disclosure of the lessor’s relationship with the Postal Service for four of the
        11 active leases sampled with financial conflicts.

While these leases do not represent material annual rents to the Postal Service, lessors
who are employees may take advantage of their insider knowledge and erode the




                                             14
Conflicts of Interest: Facility Leases                                              DA-AR-11-008
 and Contract Delivery Services


integrity and brand of the Postal Service. As presented in Appendix C we will report
$146,149 as monetary impact for Section 208 lease violations.

CDS – Conflicts of Interest

Our analysis of delivery contract and employee data showed the Postal Service
awarded 78 CDS contracts to current and former Postal Service employees. As
presented in Table 7, 15 of 78 CDS contracts (19 percent) were awarded to current
employees. Fifty-two CDS contracts (67 percent) were awarded to former Postal
Service employees and did not represent regulatory or policy violations. The remaining
11 were also no longer regulatory or policy violations due to termination of the contract
or a change in the contractor.

                          Table 7 – Results of Reviewing 78 CDS Contracts


        Category                             CDS Classification            Number of Contracts

Section 440                    Contracts to Current Employees                      15
(Financial Conflict)
Appearance of                  Former Employees Awarded CDS                        52
Impropriety                    Contracts
                               Contracts Termination or Change in                  11
No Longer Conflict
                               Contractor
                               Total                                               78

We confirmed that 15 delivery contracts valued at $591,210 with apparent statutory,
regulatory, or policy violations were awarded to current employees while substantially
engaged with the Postal Service. In one instance, a rural carrier associate was
employed by the Postal Service in December 2000 and was awarded a delivery service
contract in July 2006 while remaining employed. The employee contractor did not
disclose the Postal Service relationship as required. We noted other instances where
current employees were awarded contracts and where employees held contracts for a
significant time period prior to separation. Employees in this classification risk violations
of Title 18 U.S.C. §440 because it prohibits Postal Service employees from entering into
contracts for delivery of mail. Section 440 violations are also illegal actions subject to
criminal prosecution. As such, we have also referred these cases to our Office of
Investigations.

In addition, according to Postal Service policies, CDS contracts are not to be awarded
to current employees. 14 The Postal Service’s Supplying Principles and Practices clearly
state that the, “. . .Postal Service will attempt to avoid situations in which a supplier has

14
     Supplying Principles & Practices – General Practices, Section 7-12.




                                                           15
Conflicts of Interest: Facility Leases                                                                      DA-AR-11-008
 and Contract Delivery Services


an unfair competitive advantage. . .” 15 Awarding employees contracts during active
service or prior to separation presents a potential conflict and an unfair competitive
advantage. These 15 contracts are not violations of Section 208 because the
employees did not participate personally and substantially in the contracting decision for
which they have a financial interest.

We further noted that 52 contracts valued at $2,005,676 were awarded to former
employees and, by definition, are not violations of Postal Service and federal ethics
standards because these standards do not apply to former employees. Twenty-seven of
52 contracts were awarded to employees within days of separation from the Postal
Service. Per discussion with Postal Service contracting personnel, employees are
advised to resign before receipt of contract awards. The remaining 25 contracts were
awarded to employees 30 days after separation from the Postal Service. The Postal
Service allows for contracting delivery services with former employees when their
expertise will further the success of the business and competitive interests of the Postal
Service. However, former employees may use their insider knowledge of the Postal
Service’s process to their advantage when bidding for contracts. Although contracts with
former employees are not violations of Postal Service or federal conflicts of interest
guidelines; they give the appearance of impropriety.

Delivery service contract conflicts also existed because:

      The Postal Service does not match its contractor information to payroll records.

      Employees did not disclose their relationship as required. 16 For 10 of the 15
       apparent Section 440 violations, employees did not disclose their Postal Service
       relationships.

While delivery service conflicts are not financially material to the Postal Service,
contractors, who are employees may take advantage of their insider knowledge and
also erode the integrity and brand of the Postal Service. As presented in Appendix C,
we will report $591,210 as monetary impact for apparent Section 440 violations.




15
     Supplying Principles & Practices – Principles – Ethics and Social Responsibility – Conflicts of Interest.
16
     Supplying Principles & Practices – Provision 1-5, Proposed Use of Former Postal Service Employees.




                                                             16
Conflicts of Interest: Facility Leases                                                     DA-AR-11-008
 and Contract Delivery Services



                                  APPENDIX C: MONETARY IMPACTS

                                               Monetary Impacts

              Finding                  Impact Category                           Amount

              Section 208              Questioned Costs                             $146,149
              Lease Violations
              Section 440 CDS          Questioned Costs                               591,210
              Violations

                                       Total                                      $737,359 17


Questioned Costs
Costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.




17
     Based on annual value of lease and contract amounts.




                                                            17
Conflicts of Interest: Facility Leases                       DA-AR-11-008
 and Contract Delivery Services


                           APPENDIX D: MANAGEMENT COMMENTS




                                         18
Conflicts of Interest: Facility Leases        DA-AR-11-008
 and Contract Delivery Services




                                         19
Conflicts of Interest: Facility Leases        DA-AR-11-008
 and Contract Delivery Services




                                         20
Conflicts of Interest: Facility Leases        DA-AR-11-008
 and Contract Delivery Services




                                         21
Conflicts of Interest: Facility Leases        DA-AR-11-008
 and Contract Delivery Services




                                         22
Conflicts of Interest: Facility Leases        DA-AR-11-008
 and Contract Delivery Services




                                         23
